<html>
<title> - HEARING ON THE NOMINATION OF ROBERT J. FEITEL, OF MARYLAND, TO BE INSPECTOR GENERAL OF THE NUCLEAR REGULATORY COMMISSION</title>
<body><pre>[Senate Hearing 116-99]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 116-99

   HEARING ON THE NOMINATION OF ROBERT J. FEITEL, OF MARYLAND, TO BE 
         INSPECTOR GENERAL OF THE NUCLEAR REGULATORY COMMISSION

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 3, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works



              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




        Available via the World Wide Web: http://www.govinfo.gov 
                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
38-673 PDF                 WASHINGTON : 2020 
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

                     MIKE BRAUN, Indiana, Chairman
JAMES M. INHOFE, Oklahoma            SHELDON WHITEHOUSE, Rhode Island, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE ROUNDS, South Dakota            BERNARD SANDERS, Vermont
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
JOHN BARRASSO, Wyoming (ex officio)  TAMMY DUCKWORTH, Illinois
                                     THOMAS R. CARPER, Delaware (ex 
                                         officio) 
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            DECEMBER 3, 2019
                           OPENING STATEMENTS

Braun, Hon. Mike, U.S. Senator from the State of Indiana.........     1
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     2
Carper, Hon. Thomas R., U.S. Senator from the State of Deleware..     3

                               WITNESSES

Feitel, Robert J., Nominated to be Inspector General of the 
  Nuclear Regulatory Commission..................................     5
    Prepared statement...........................................     7
    Responses to additional questions from:
        Senator Carper...........................................    11
        Senator Braun............................................    12
        Senator Duckworth........................................    14
        Senator Inhofe...........................................    16

 
   HEARING ON THE NOMINATION OF ROBERT J. FEITEL, OF MARYLAND, TO BE 
         INSPECTOR GENERAL OF THE NUCLEAR REGULATORY COMMISSION

                              ----------                              


                       TUESDAY, DECEMBER 3, 2019

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,
                                                    Washington, DC.
    U.S. Senate Committee on Environment and Public Works 
Subcommittee on Clean Air and Nuclear Safety Washington, DC.
    The committee met, pursuant to notice, at 3:08 p.m. in room 
406, Dirksen Senate Office Building, Hon. Mike Braun (chairman 
of the committee) presiding.
    Present: Senators Braun, Carper, Cardin, Boozman, Ernst, 
Gillibrand.

             OPENING STATEMENT OF HON. MIKE BRAUN, 
             U.S. SENATOR FROM THE STATE OF INDIANA

    Senator Braun. Good afternoon. Thanks to everyone for being 
here today. This hearing is called to order.
    Today, we will be considering the nomination of Robert 
Feitel to be Inspector General of the Nuclear Regulatory 
Commission. If confirmed as Inspector General, Mr. Feitel will 
lead an independent office within the NRC to ensure the agency 
maintains its world-renowned reputation for safety, efficiency 
and program integrity.
    As you know, the NRC not only regulates the American 
commercial nuclear sector, which is the largest in the world, 
with 96 licensed reactors, but it also serves as a global model 
or gold standard in the safe regulation of nuclear technology. 
The United States' nuclear power plants currently represent the 
largest fleet of reactors in the world. These reactors supply 
about 20 percent of our Nation's electricity.
    Importantly, this nuclear power is the most reliable and 
one of the most cost-effective sources of clean baseload 
electricity. As the committee recently heard, U.S. nuclear 
plants are operating at historically high levels of safety and 
performance. This is a testament to the commitment and 
dedication of nuclear power plant operators. NRC's regulations 
provide the assurance that public health and safety are 
protected.
    However, maintenance and operational issues still might 
occur. Occasionally over the last four decades, reactors have 
temporarily shut down due to corroded pipes, cracks in critical 
equipment, and for a few other reasons. The industry learns 
valuable lessons each time from one of these incidents.
    Today, the American civilian nuclear industry is facing 
another challenge. Abundant natural gas and wind and solar 
subsidies are placing significant economic pressure on nuclear 
power. The NRC plays a vital role in this regard. We all know 
that the industry needs a stringent, independent regulatory 
structure to ensure safe operation.
    However, safety regulations must be risk-based. An 
inflexible and burdensome regulatory framework may result in 
the agency regulating the nuclear industry out of business.
    The NRC is also facing challenges with staff retention and 
turnover, like many other businesses. This issue is a high 
priority for the commission itself, but also should be a 
priority for the next Inspector General.
    If confirmed, Mr. Feitel will be the first new appointment 
for the NRC IG in over 25 years. If Mr. Feitel serves the same 
length of time, he will be the Inspector General for the 
relicensing or closure of nearly every currently operating 
nuclear plant.
    Mr. Feitel's appointment comes at a pivotal time for both 
the industry and the NRC. The next Inspector General will be 
tasked with safeguarding the NRC's impressive track record. 
This means ensuring that the agency never strays from its 
primary objective of overseeing the safe operation of our 
nuclear fleet. This is why it is critically important that the 
NRC Inspector General is a person of integrity and 
independence.
    I am pleased that President Trump has nominated Mr. Feitel 
for this position. The Chief of the DOJ's Capital Case Section, 
Richard Burns, noted in his letter to this committee that Mr. 
Feitel has exhibited the ability to provide a fair-minded, 
independent assessment of each case, to scrupulously adhere to 
his ethical obligations, and to follow the facts and evidence 
wherever they lead. These characteristics are necessary for any 
inspector general, but particularly in the NRC.
    The committee also received a letter of support from Mr. 
Patrick Martin, the Chief of the Criminal Division in the D.C. 
U.S. Attorney's Office, who said, ``Without a doubt, Mr. Feitel 
was one of the most conscientious and talented colleagues with 
whom I have had the pleasure to work with during my time in 
this office.''
    Mr. Feitel's character and service make him an ideal 
candidate for the NRC's Inspector General. I look forward to 
hearing his testimony today and to considering the nomination.
    Now I would like to recognize Senator Cardin to introduce.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you, Mr. Chairman. After your 
acknowledgement of Robert Feitel, maybe I should just quit 
while we are ahead right now.
    But let me, if I might, take the prerogative as the Senator 
from Maryland with pride to introduce Mr. Feitel to our 
committee and to welcome him and his family, and thank him for 
his public service.
    I also have a connection in that the NRC's headquarters is 
located in Maryland. We take great pride that the NRC 
represents the global gold standard for nuclear safety. But it 
is critically important that the men and women who work at the 
NRC in carrying out this mission that the IG has their back to 
make sure that they can operate in an independent, non-partisan 
manner.
    When you look at Mr. Feitel's record, it gives you great 
confidence that he has that ability to carry out this 
responsibility. As the Chairman said, the last IG was there for 
20 some years. So they are big shoes to fill.
    Mr. Feitel has extensive experience in public service, as 
Assistant General Counsel to the FBI, Assistant U.S. Attorney 
here in the District. Also Special Assistant U.S. Attorney in 
Washington and Virginia, tribal attorney for the Department of 
Justice, the Capital Case Section. He served on the President's 
Task Force to review the Gitmo Bay Detainees, the Department of 
Justice Counterterrorism Unit. You can see a wide range of 
experience. He started all his legal training at the University 
of Maryland Law School, which shows his good judgment in the 
selection of the law school that he attended.
    I talk frequently about the fact that here in the United 
States, we are blessed with an incredible group of public 
servants who work as a Federal work force. It is really 
somewhat of a hidden national asset, because they don't get the 
credit that they deserve. I think that Mr. Feitel represents 
the very best of public service represented by our Federal work 
force. So I am very proud to introduce him.
    One last point, if I just might say, as you pointed out. 
The work of the NRC is critically important for public safety. 
We need to have an IG who will be non-partisan, who will deal 
with the most critical charge of rooting out misconduct, waste, 
fraud, theft, abuse, and mismanagement. And they must be beyond 
reproach.
    Looking at Mr. Feitel's background, it gives me great 
confidence that he has the experience and he has the know-how 
to carry out this very important responsibility. I thank him 
for his willingness to serve in this capacity.
    Senator Braun. Senator Carper, for opening comments.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Mr. Feitel, welcome. Thank you for your willingness to take 
this on.
    I would just say to the family members of yours in the 
audience, it is not uncommon for, at nomination hearings, for 
family to come. Sometimes it is a spouse. Sometimes it is a 
son, sometimes it is a daughter, it could be a parent, an aunt 
or uncle, brother or sister.
    Just looking at this audience, as I look over your left 
shoulder, to my right, I have never seen a witness come before 
us who had three women who look they could be his wife, and all 
look just alike.
    [Laughter.]
    Senator Carper. They really do. We rarely have a situation 
when I say, which one is the mom.
    [Laughter.]
    Senator Carper. We are happy that you are here, we are 
happy that your family is here as well, and other friends, too. 
We appreciate your willingness, again, to serve as the IG at 
the Nuclear Regulatory Commission.
    Since coming to the Senate almost 19 years ago, I have 
worked with both Republicans and Democrats on this committee to 
strengthen what we call the culture of safety within the U.S. 
nuclear industry. That includes making sure that the NRC is an 
independent and transparent regulator, one that prioritizes 
safety above all other issues.
    In part due to our collective oversight efforts and in part 
due to the NRC's dedicated staff, some of whom are here today, 
the U.S. nuclear industry remains one of the safest in the 
world, maybe the safest in the world. The NRC, we believe, is 
the world gold standard for nuclear regulatory agencies.
    Today, there are still 96 nuclear reactors that are in 
operation in our Country. They are operating more efficiently, 
as has been noted already by the Chairman, more efficiently 
than ever before. And they are producing more than 50 percent 
of our Nation's carbon-free electricity. I will say that again. 
They are producing more than 50 percent of our Nation's carbon-
free electricity.
    As our Nation and other nations look to nuclear energy to 
help address the climate crisis, we cannot be complacent when 
it comes to nuclear safety. Now perhaps more than ever, the NRC 
and the nuclear industry must continue to be held to the 
highest standard. That means having a strong and independent 
NRC Inspector General.
    If Mr. Feitel is confirmed, he will serve as one of the 
first lines of defense against fraud, against waste, against 
abuse, against mismanagement, and misconduct across the NRC. If 
Mr. Feitel is confirmed, he will track and determine whether 
the NRC has the tools necessary to keep our Country's nuclear 
power the safest in the world. And if Mr. Feitel is confirmed, 
my colleagues in Congress and I will depend on him to keep us 
informed about the serious issues that may arise related to the 
NRC's program and to its operations.
    Put simply, if confirmed as the NRC's Inspector General, 
Mr. Feitel will serve as watchdog for the safety of the 
American people, no small responsibility. In order to fill this 
critical role, I believe Mr. Feitel must bring integrity, 
independence, and transparency to the job every day. And we 
look forward today to hearing Mr. Feitel's testimony to get a 
better sense of his understanding of the important job for 
which he has been nominated and some of the values that he 
brings to the job.
    We want to thank you again, Mr. Feitel, for joining us all 
here today. A special thank you to your family for their 
willingness to serve you with the American people. Thank you.
    Senator Braun. Thank you, Senator Carper.
    Now I am going to recognize you, Mr. Feitel, for 5 minutes 
of opening statements and to introduce any of your family here, 
and go forward with that. We look forward to your testimony.

  STATEMENT OF ROBERT J. FEITEL, OF MARYLAND, TO BE INSPECTOR 
          GENERAL OF THE NUCLEAR REGULATORY COMMISSION

    Mr. Feitel. Thank you, Senator.
    Good afternoon, Chairman Braun, Ranking Member Carper, and 
distinguished members of this subcommittee. I am humbled and 
honored to come before you as the nominee to be the Inspector 
General of the United States Nuclear Regulatory Commission.
    I am grateful to the President for nominating me to such an 
important position, I am grateful to all of you and your staff, 
for considering my nomination, and for taking the time to meet 
with me prior to this hearing, and I am thankful that my family 
and friends could join me here today.
    Seated behind me is my amazing wife of 25 years, Caroline.
    Senator Carper. Would you ask your wife to raise her hand?
    [Laughter.]
    Mr. Feitel. And my two beautiful daughters, Grace and 
Camilla, who are quickly growing up to be such accomplished 
young women. I am incredibly proud of them. Also with me here 
today is my brother, Dave, my sister-in-law, Lorie, my niece, 
Alex, and several of my dear friends who were kind enough to 
join me. Thank you to you all.
    I would like to begin by saying that I see the Inspector 
General role as critical for effective, efficient, and fair 
government. The Inspector General is literally on the front 
lines in the fight against waste, fraud, abuse, and 
mismanagement.
    The Inspector General must be non-partisan, and apolitical, 
as I am. I have worked through four administrations, two 
Democrat and two Republican.
    The Inspector General must by unmoved by ever-changing 
political winds and constantly evolving threats of undue 
influence. It requires a person with the utmost integrity, 
honesty, independence, and fairness.
    I believe that I possess each of these characteristics, as 
well as the substantive skill sets required of a government 
watchdog for the American people. I have been a lawyer for 29 
years, and nearly 25 of those 29 years, I have been in public 
service, which for me is truly a calling, not just an 
occupation.
    When I first entered Federal service in 1995, I was 
thrilled to be joining what is still the Nation's preeminent 
law enforcement organization, the Federal Bureau of 
Investigation. As one might imagine, the legal issues 
confronting the FBI on a daily basis were, and continue to be, 
considerable and challenging. The experience I gained there 
would prove to be very beneficial as I embarked on a career as 
a Federal prosecutor.
    As a Special Assistant U.S. Attorney at the U.S. Attorney's 
Office for the Eastern District of Virginia, my felony work 
focused on white collar fraud cases, and I was fortunate enough 
to be able to bring two of those cases to jury trial. 
Afterwards, I served as an Assistant U.S. Attorney at the U.S. 
Attorney's Office for the District of Columbia, where I spent 
12 years honing my investigative, writing, and trial advocacy 
skills, working on matters ranging from bank fraud to the most 
violent of offenses, and everything in between.
    During my tenure there, I enhanced my national security 
bona fides, through my assignment to the President's Executive 
Order Task Force for the Review of Guantanamo Bay Detainees. 
This task force was a massive undertaking, a comprehensive 
audit and investigation of over 200 detainees, effectively an 
in-depth assessment of human capital from a range of 
perspectives.
    It was a bipartisan, collaborative, inter-agency effort 
across the U.S. Government, bringing together diverse 
interests, competing agendas, and varied political ideologies. 
Yet, despite all of these profound differences, the Task Force 
fulfilled its audit and investigative mission effectively and 
on time, producing a comprehensive report for Congress, to 
facilitate the most informed decisionmaking going forward.
    No matter where I have worked, however, and no matter how 
tremendous the responsibility, I never lost sight of the need 
for strict compliance with constitutional norms, candor with 
the tribunal, and strict compliance with the rule of law. 
Indeed, I see myself as a servant of the law. To me, this means 
doggedly pursuing the truth, wherever that road may lead, 
unfazed by fear or favor, not swayed by passion or prejudice, 
and unwavering in my commitment to justice and fairness.
    Most recently, I have been working for the Capital Case 
Section, perhaps the smallest litigating section in the 
Department of Justice in terms of size, but certainly one of 
the largest in the context of ethical weight and 
responsibility. In this role, I am an advisor to the Attorney 
General of the United States and his Review Committee, ensuring 
fairness and consistency in the decisionmaking process on the 
appropriateness of seeking capital punishment in Federal cases 
across the Country.
    On occasion, I present these cases to juries, who must make 
the most difficult choice any juror ever faces. Thus, I am no 
stranger to working on issues that are exceedingly complex, and 
which draw fervent, passionate, competing views, because they 
are truly life and death issues.
    Senators, I hope you will agree that my extensive 
experience and background, born of a quarter century of service 
to this Country, make me a promising candidate for the 
Inspector General position.
    I am seeking your support, and I look forward to your 
questions. Thank you.
    [The prepared statement of Mr. Feitel follows:] 
    
    
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Braun. Thank you, Mr. Feitel. Before we take 
questions from members of the subcommittee, I have to ask a few 
that we ask of all nominees on behalf of the committee. Do you 
agree, if confirmed, to appear before this committee or 
designated members of this committee and other appropriate 
committees of the Congress and provide information, subject to 
appropriate and necessary security protection with respect to 
your responsibilities?
    Mr. Feitel. Yes, Senator, I do.
    Senator Braun. Do you agree to ensure that testimony, 
briefings, documents and electronic and other forms of 
information are provided to the committee and its staff and 
other appropriate committees of jurisdiction in a timely 
manner?
    Mr. Feitel. Yes, Senator, I do.
    Senator Braun. Do you know of any matters which you may or 
may not have disclosed that might place you in any kind of 
conflict of interest if you are confirmed?
    Mr. Feitel. No, Senator, I do not.
    Senator Braun. Great. I appreciate those responses. I will 
begin by recognizing myself for 5 minutes of questions.
    As we discussed in my office, reducing our Nation's debt, I 
think, should be a concern for all of us that serve in this 
body. As an entrepreneur and CEO, I look at the bureaucracy in 
Washington and see a lot of room for improvement. The NRC is 
primarily funded through fees to its licensees. My Indiana 
constituents helped pay for the NRC for energy purchased from 
the D.C. Cook Nuclear Plant just across the Indiana-Michigan 
border.
    If confirmed, how you would approach the Inspector 
General's role in ensuring that the NRC is accountable in how 
the agency manages its finances in an efficient and transparent 
manner?
    Mr. Feitel. Well, Senator, if confirmed, I believe as the 
Inspector General I would have the programmatic ability to 
assess how that money is being spent. Obviously, if there is 
waste going on, or mismanagement of how it is being spent, that 
is a classic IG responsibility for investigation, inquiry and 
reporting to the Chair and Congress about what my findings 
would be in that situation.
    Senator Braun. In your opening statement, you noted your 
service on the President's Executive Order Task Force for the 
Review of Guantanamo Bay Detainees. Can you describe for the 
committee how you will use that experience if confirmed?
    Mr. Feitel. Well, Senator, I found that experience to be 
not only rewarding, but also quite frankly, inspiring. Because 
it was such a diverse group of political ideologies and 
competing agendas, and different agencies across the U.S. 
Government. Yet we all came together because we had a focused 
mission, which was to accurately audit and investigate and 
assess each of these detainees, so that the decisionmakers 
could make their best decision.
    That involved an in-depth assessment of intelligence, a de 
novo review of intelligence, if you will, it was not taking 
everything at face value as it was coming in, but rather 
looking at it all over again with a fresh set of eyes. We did 
that, and we looked at all the detainees from a standpoint of 
their actual threat assessment to this Country, high level 
versus low level, their likelihood of recidivism, their 
likelihood of being able to repatriate into their home country, 
the likelihood that they could be relocated to a third party 
country, all these various factors that the decisionmakers 
needed.
    That was this bipartisan collaborative effort, and I think 
that is a tremendous lesson for me to show that, working in a 
collaborative fashion, we can get effective answers quickly and 
on time. That is what an IG really should be doing for the 
Chair and for this Congress, in my opinion, Senator.
    Senator Braun. When I toured the Cook facility in Michigan, 
I was impressed by all the stigma that has been associated with 
nuclear plants. I think in our own Country, Three Mile Island. 
But to me, it looked like they had raised the level of scrutiny 
and safety to where I asked them, how many incidents did you 
have and so forth. I was very impressed.
    I think that plants are operating at safer and safer 
levels. Our next conversation was well, what are you doing, are 
you going to apply for an additional 20 years and then maybe 20 
years beyond that, and to note that it is 20 percent of our 
baseload supply.
    I guess in any business you are constantly trading off risk 
associated with something and then trying to mitigate it. There 
could not be anything that personifies that more, I think, than 
maybe the task ahead for you.
    So let me ask it in this way. A risk-based approach allows 
nuclear power plants to use innovation to prioritize and 
incentivize nuclear safety activities in a cost-competitive 
manner. If confirmed, will you build on the IG's previous work 
to balance the appropriate use of risk while preserving the 
focus on nuclear safety? How difficult do you think that 
balance will be?
    Mr. Feitel. Well, Senator, the short answer is, yes, I will 
strive to achieve that balance. Obviously, as I am a nominee 
and on the outside, I am not privy to the details of the risk-
informed decisionmaking that the chair of the NRC and her 
commissioners are involved in.
    But if confirmed, I would certainly, to the extent that 
that process needed a closer look or a first look or a second 
look, I would be more than willing to do that as the Inspector 
General, yes.
    Senator Braun. Thank you. Senator Carper.
    Senator Carper. Thanks. Again, thank you for joining us 
today. I would just say to our audience, especially to your 
wife and daughters, there aren't a lot of members sitting here 
on this side of the dais. That is a good thing. Because usually 
when there are a lot of us here, you are in trouble, or your 
nomination is. I think you should be encouraged by this modest 
turnout. We are happy to be here.#
    I want to just talk to you for a moment. My staff was nice 
enough to prepare a couple of questions that I will ask you.
    But I just want to ask you one right from my heart. That 
is, if you will think out loud for us about the values that 
guide you in your life that you think helped prepare you for 
this responsibility, where do those values come from? Where do 
they emanate from? How have you passed them on to others, 
including your own daughters, your own children? Please.
    Mr. Feitel. Senator, I believe that my values came from two 
primary sources, family and faith.
    Senator Carper. Two of my favorite F words. There you go. I 
say Thanksgiving is my favorite holiday, it has all my favorite 
F words, including family, faith, football, friends. It is just 
the best. Go ahead.
    Mr. Feitel. Thank you. My parents, who unfortunately are 
both deceased, raised three very solid young men, if I may say. 
Not so young anymore, I guess. But they instilled their values 
early on, and coupled with our faith, I think they raised 
honest gentlemen with integrity and compassion. They really did 
a lot for us. And I think of course, my faith did as well. But 
that is where I think it derives from, at least with respect to 
me.
    Senator Carper. And the second half of my question is, how 
have you passed on those values to your own children?
    Mr. Feitel. Well, I think my wife and I have done our best 
to instill those values, to keep it going, if you will. I think 
we have done a fairly good job. Sitting before you now are two 
very sweet, honest, hard-working, accomplished young women. I 
think the proof is in the pudding, as they say. The 
installation of the values seems to have taken hold, so I am 
very pleased about that.
    Senator Carper. Good. In your career, have you ever taken 
an action that comes to mind, or maybe a couple of examples, 
that at the time were not politically popular, that you just 
felt that they were the right thing to do, and you did it even 
though they were not popular, they were not expedient, not 
easy. Can you give us a couple examples of that?
    Mr. Feitel. Certainly. With respect to the first comment 
there, Senator, political popularity in my world is of no 
moment. The reason for that is I cannot----
    Senator Carper. I can't say the same for us.
    [Laughter.]
    Mr. Feitel. As a prosecutor, as an FBI attorney, as a trial 
attorney in Justice, I cannot let politics factor into 
prosecutorial decisions and into investigative decisions and 
into charging decisions. That is not proper, and I wouldn't do 
it even if it were somehow allowed, but it is not.
    With respect to overall decisions that I have made, though, 
that are just generally unpopular, I was known, when I was 
Assistant U.S. Attorney in Washington, DC, as someone who did 
not hesitate to dismiss a case where I felt in my prosecutorial 
discretion that the evidence was either insufficient to go 
forward or was so lacking as to, if we went forward, the cost 
benefit analysis was such that it just wasn't worth it, because 
justice wouldn't be done there.
    So I have always put justice first. I have never focused on 
whether the case is winnable or should be won. That never 
factored or will factor into my decision as a prosecutor. It is 
always about doing the right thing, as you say, Senator. I have 
tried to make that a guidepost for my life and also for my 
career.
    Senator Carper. One more. In your experience, what are the 
hallmarks of independent oversight that inspectors general are 
sworn to conduct?
    Mr. Feitel. The first hallmark, Senator, I would say, is 
not being swayed by any sort of political interference, but 
rather, going back to my prior point, always doing the right 
thing, always doing the right thing by the American people. 
Looking at the Nuclear Regulatory Commission to make sure that 
safety, safety, safety is our mantra, and that whatever I can 
do as an IG if confirmed enhances that mindset.
    Independence, I have always been independent. I have never 
been moved by the winds of political change or what have you. I 
don't intend on doing that if confirmed.
    Senator Carper. OK. How will you ensure that the work of 
the Office of Inspector General maintains its independence?
    Mr. Feitel. Well, I will instill that as a top-down 
culture, if confirmed, from the moment I get in. I will let 
everyone know if I am made to be the IG that we are not going 
to be anything but independent. That is a hallmark of the 
inspector general's office, of an OIG. I would insist on that 
from a top-down standpoint.
    Senator Carper. I don't ask a lot of yes or no questions, 
or true of false questions. I am going to ask you a yes or no 
question. The question is this. Will you commit for us, if 
confirmed, that you will promptly inform this committee any 
time the commissioners at the Nuclear Regulatory Commission or 
any part of the Executive Office of the President refuse to 
provide you and your team with information or attempts to 
stonewall an audit or investigation? Will you commit to doing 
that?
    Mr. Feitel. Senator, if those folks are doing something 
unlawful or inappropriate, I will absolutely let this body 
know. I am all about following the rule of law. If anyone that 
I am looking at, if confirmed as IG, is not complying with the 
rule of law, that is something I would definitely bring to your 
attention, yes.
    Senator Carper. All right, thank you. Thanks very much.
    Senator Braun. Before the hearing started, you were talking 
about being born on the west coast and then moving to Maryland 
within close distance of the NRC, now, where you will be the 
Inspector General. What was your general impression of what you 
saw of it, living nearby, and just out of curiosity, in your 
wildest dreams, did you ever thing you would be up for a 
nomination to be its Inspector General?
    Mr. Feitel. It is a difficult question, Senator. I am not 
certain if I ever saw myself as being nominated as an inspector 
general. I definitely saw myself as a lifelong public servant. 
I am not sure I was able to discern in what specific role that 
would be, but I always saw myself as serving the American 
people.
    I think the slight pivot, if you will, to the Inspector 
General role is, I have realized, I think it was a good one for 
me to make. I am hopeful for it. But I definitely always wanted 
to serve.
    Growing up in Rockville, I have certainly seen the changes, 
the dramatic increase in population density and traffic and all 
the things that go along with that. I actually remember when 
the Nuclear Regulatory Commission headquarters was built. I 
think at that time it was the tallest building in that general 
area. Maybe it is still today, I don't know.
    I think that is about it, Senator.
    Senator Braun. How far away is the closest nuclear 
facility? Because you do have some near you, right?
    Mr. Feitel. Yes, I believe the closest one is Calvert 
Cliffs, which I believe is in Calvert County, in Maryland, 
maybe, I would say about a 40-minute drive in traffic.
    Senator Braun. And you have lived there in your proximity 
to the NRC facility for how long?
    Mr. Feitel. More or less my whole life.
    Senator Braun. So since you are near the Regulatory 
Commission building, and you are near a facility, what is your 
general sense, just as a citizen, of what the feeling would be 
among fellow citizens about safety of nuclear power and 
possibly finding ways to extend its lifetime with facilities 
that are looking at extending licenses in your own backyard? 
What do you sense?
    Mr. Feitel. Candidly, Senator, I am fine with that. I think 
the NRC, as one of your colleagues said earlier today, is the 
gold standard of global regulatory frameworks for the civilian 
use of radioactive materials. I, if confirmed, would like to 
build on that and do my best to ensure that gold standard title 
is maintained.
    Senator Braun. Very good. Senator Carper.
    Senator Carper. Senator Braun and I and Senator Cardin and 
I have the opportunity from time to time to go to schools, and 
to talk sometimes at elementary schools, sometimes it is a 
college, sometimes it is a junior college.
    I like to tell a story about one particular elementary 
school, it was a kindergarten through grade five, I think there 
weren't any kindergarten kids in the assembly, but grades one 
through five. I spoke to them for about 10 minutes about what I 
do, what we do here.
    This one little girl in the third grade raised her hand and 
said, what do you do? I explained that we get to help make the 
rules for our Country. I asked her, do you have rules at 
school? She said yes. I said, do you have rules at home? She 
said yes. I said, do you have rules on your school bus? She 
said yes.
    I said, we have rules for our Country, and we call them 
laws. Along with 99 other Senators and 435 Representatives and 
a President and Vice President, I get to help make the rules 
for the Country. She said, OK.
    The little boy sitting next to her raised his hand and 
said, what else do you do?
    [Laughter.]
    Senator Carper. And I said, we help people. We help people 
in a lot of different ways.
    There has been a fair amount of attention lately about 
putting a man or a woman on the moon again. I will never forget 
the story I heard years and years ago, when we were trying to 
do that. A fellow had an appointment to meet with somebody at 
Cape Canaveral, where they were going to do the launch for the 
Apollo mission. He got there late, most people had left for the 
day, it was after business hours. He was just trying to find 
the office where he was going to meet somebody.
    It is a pretty big complex, and as he was going along, he 
came across a janitor. And he said to the janitor, told him 
what he was there for, but he said to the janitor, what do you 
do? The janitor said, I am helping to put a man on the moon. I 
am helping to put a man on the moon.
    You in your responsibilities and those that you will 
surround yourself with if confirmed and the people that work at 
the NRC are doing more than just trying to make sure that we 
run our nuclear power plants safely and efficiently. The 
biggest challenge we face right now, I think, on this planet, 
has to do with our atmosphere, all the carbon in our 
atmosphere. So you actually get to help, not put a man or woman 
on the moon, but you will have a chance to help preserve this 
planet as we know it. I just want to ask you to think out loud 
about that responsibility.
    Mr. Feitel. Yes, Senator, if one is serious about climate 
change concerns, one must be serious about nuclear energy and 
what it can offer in a diverse energy mix in this Country. It 
is a wonderful, low-carbon emission source.
    I think when viewed in the context of all the other energy 
sources that we have, it is certainly one that we should value 
and continue to work with to ensure safety, of course, but also 
to push forward as this body has done with the Innovation and 
Modernization Act, things of that nature to continue with the 
pursuit of nuclear energy as part of that diverse mix.
    Senator Carper. One last thing I want to add, just maybe a 
couple words of advice, that if you are confirmed, you may want 
to keep in mind going forward. I love to talk to young people. 
Sometimes it is at a service academy, sometimes schools in 
Delaware, sometimes a Civil Air Patrol group or Boy Scouts or 
Girl Scouts. I love to talk to them about leadership.
    I am a retired Navy captain, Vietnam veteran, last one 
actually in the Senate. I think a lot about leadership. I have 
probably made every mistake a leader can make, almost. And I 
have learned from my mistakes.
    One of the things I have learned along the way is to figure 
out what, when in a quandary, when you are facing tough 
decisions, asking, and you said these words already, what is 
the right thing to do, not what is easy or what is expedient. 
What is the right thing to do.
    The other probably comes from your faith as well. If you 
look at every major religion in the world, every one of them, I 
don't care if it is Christianity, Judaism, Islam, Buddhism, 
Hindu, all of them, have in their sacred scriptures the golden 
rule, to treat other people the way you want to be treated, 
love thy neighbor as thyself. You can never go wrong by 
sticking to that one.
    A third thing that I have learned is that good leaders 
focus on excellence in everything that they do. They like to 
say, if it isn't perfect, let's make it better. A really good 
leader surrounds himself with a terrific team of the best 
people that he or she can find. And when the team does well, 
the team gets the credit. And when the team falls short, the 
leader takes the blame.
    I always surround myself with people smarter than me. My 
wife says it is not hard to find them.
    [Laughter.]
    Senator Carper. She actually does say that.
    I think the last piece of advice is, when you know you are 
right, you are sure you are right, don't give up. Just don't 
give up.
    Mr. Feitel. Yes, Senator.
    Senator Carper. If you do those things, you will be OK.
    I give the shortest high school commencement and college 
commencement speeches that they have ever heard in Delaware. I 
use like ten words in my commencement speeches. When I am about 
to address the graduates, I have them stand up. And they 
finally stand up, reluctantly, but they stand up. I say, I am 
going to give you the shortest commencement speech you have 
ever heard. They start applauding. Then their parents applaud.
    I say, ten words in my speech. They applaud some more. Then 
I say, the first two words are aim high. And I have them repeat 
that, aim high. The second two words are work hard. I have them 
repeat work hard. Then I say, it gets more complex, now there 
are four words. Those four words are, embrace the golden rule. 
I will have them say that.
    Then I say, the last two words are don't quit. I say that. 
So we do it again, aim high, work hard, embrace the golden 
rule, don't quit. And I have them repeat that for like 20 
minutes. Then we let their parents do that.
    People I meet years later remember, they actually remember 
that. That is really good advice for all of us, in ten words.
    So I don't know that you need any of that, but you might. 
And hopefully if you get confirmed, and I hope you will, those 
words will be of some help to you along the way.
    Again, our thanks to your parents. Sometimes when we have 
sons and daughters come with their mom or their dad who has 
been nominated, every now and then I will be watching them, and 
they will be rolling their eyes as their parents are speaking, 
or responding to questions. That is always a bad sign.
    I just want to note that your daughters did not roll their 
eyes, even once.
    Mr. Feitel. Outstanding.
    Senator Carper. Although they smiled a lot, which I think 
is a good thing. Good luck. Thank you all.
    Mr. Feitel. Thank you, Senator.
    Senator Braun. Thank you, Senator Carper.
    Before we conclude, I want to read three brief letters of 
support. Circuit Judge Vincent Chiu, who worked with Mr. Feitel 
when he served as an Assistant U.S. Attorney sent this 
committee a letter of support stating, ``Robert is hard-working 
and a dedicated public servant who has given his career to the 
cause of justice.''
    Andrew Lelling, the U.S. Attorney for the District of 
Massachusetts, worked with Mr. Feitel in the U.S. Attorney's 
Office, states, ``He has a strong reputation for being fair, 
having a strong work ethic, and exercising good judgment. His 
wise counsel is never clouded by extraneous personal views.''
    And Hope Olds [phonetically], who served with Mr. Feitel on 
the President's Executive Order Task Force for Review of 
Guantanamo Bay Detainees, in 2009, said, ``Robert skillfully 
navigated the participants' differences and competing agendas 
to find common ground.'' I think that is important. ``He was a 
gifted advocate for the Department's positions based on his own 
careful research and good judgment.''
    I ask unanimous consent to enter these letters into the 
record.
    Senator Carper. I object.
    [Laughter.]
    Senator Carper. I don't really.
    [The referenced information follows:] 
    
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Braun. No more questions for today. Members may 
also submit followup questions for the record by 4 p.m. on 
Thursday, December 5th.
    Mr. Feitel, please respond to those written questions by 
noon on Monday, December 9th, if there are any. I want to thank 
you for coming here to testify today. This hearing is 
adjourned.
    [Whereupon, at 3:51 p.m., the hearing was adjourned.]

                                 [all]
</pre></body></html>
